         Office of Inspector General




December 22, 2005

AYODEJI O. SANYAOLU
ACTING PLANT MANAGER
J. T. WEEKER INTERNATIONAL SERVICE CENTER

SUBJECT:      Audit Report – Efficiency of the Chicago Airmail Records Unit at the
              J.T. Weeker International Service Center
              (Report Number NO-AR-06-002)

This report presents the results of our audit of the Airmail Records Unit (AMRU) at
the J.T. Weeker International Service Center (ISC), Chicago, Illinois, located in the
Great Lakes Area (Project Number 05YG021NO000). Our objective was to assess
the efficiency of operations at the Chicago AMRU. This report is the fourth in a
series of site reports on the efficiency of AMRUs. This was a self-initiated audit,
which we conducted in cooperation with the Chicago District manager. At the
conclusion of our site reviews, we will issue a global report addressing common
issues.

The Chicago AMRU could improve operational efficiency. Specifically, the Chicago
AMRU processed fewer records per workhour than the targeted productivity rate,
misaligned some workhours with workload, and performed extra work because plant
operations personnel sorted mail improperly. The Chicago AMRU could begin to
improve operational efficiency by reducing 3,860 workhours over a 5-year period.
This reduction could produce a cost avoidance of approximately $1.1 million based
on labor savings over a 10-year period. These savings represent funds put to better
use for the Postal Service and will be reported as such in our Semiannual Report to
Congress. In addition, the Postal Service manually maintained records and had
employees perform some unnecessary work. We will address the latter issues in
our global report.

We made three recommendations in this report. Management generally agreed with
our finding, recommendations, and monetary impact and has initiatives in progress,
completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during
the audit. If you have any questions or need additional information, please
contact Robert J. Batta, Director, Network Operations – Processing, or me at
(703) 248-2300.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Michael J. Nappi
    Jeffrey Harris
    Charles A. Sciurba
    Steven R. Phelps
Efficiency of the Chicago Airmail Records Unit at the              NO-AR-06-002
 J.T. Weeker International Service Center



                                   TABLE OF CONTENTS

 Executive Summary                                                        i

 Part I

 Introduction                                                             1

     Background                                                           1
     Objective, Scope, and Methodology                                    1
     Prior Audit Coverage                                                 2

 Part II

 Audit Results                                                            4

     Assessment of Operational Efficiency                                 4
     Recommendations                                                      9
     Management’s Comments                                                9
     Evaluation of Management’s Comments                                  9

 Appendix A. Cost Avoidance at the Chicago AMRU, J.T. Weeker ISC        10
             (Funds Put to Better Use)

 Appendix B. Management’s Comments                                      11
Efficiency of the Chicago Airmail Records Unit at the                                                   NO-AR-06-002
 J.T. Weeker International Service Center



                                         EXECUTIVE SUMMARY
    Introduction                     We reviewed the Chicago Airmail Records Unit (AMRU) at
                                     the J.T. Weeker International Service Center (ISC), located
                                     in the Great Lakes Area. Our objective was to assess the
                                     efficiency of operations at the Chicago AMRU. This was a
                                     self-initiated audit, which we conducted in cooperation with
                                     the Chicago District manager.

                                     This is our fourth1 in a series of site reports on the efficiency
                                     of AMRUs. When we complete these site reviews, we will
                                     issue a global report addressing common issues.

    Results in Brief                 The Chicago AMRU was not operating efficiently.
                                     Specifically, the Chicago AMRU:

                                          •   Processed fewer records per workhour than the
                                              targeted productivity rate.

                                          •   Misaligned some workhours with workload.

                                          •   Performed extra work because plant operations
                                              personnel sorted mail improperly.

                                          •   Manually maintained and retrieved records.

                                          •   Performed some unnecessary work.

                                     Title 39, United States Code, Chapter 4, §403, states, “The
                                     Postal Service shall plan, develop, promote and provide
                                     adequate and efficient postal services. . . .”

                                     These conditions occurred because Postal Service
                                     managers had not evaluated operational efficiency,
                                     extensively analyzed operations, or examined and updated
                                     procedures.




1
    The OIG has previously conducted three self-initiated audits of AMRUs (see prior audit coverage).



                                                           i
Efficiency of the Chicago Airmail Records Unit at the                               NO-AR-06-002
 J.T. Weeker International Service Center



                                 We concluded the Postal Service could begin to improve
                                 operational efficiency by reducing 3,860 AMRU workhours
                                 over a 5-year period, periodically evaluating operations, and
                                 training plant operations personnel in proper mail sortation.
                                 Workhour reductions could produce a cost avoidance of
                                 approximately $1.1 million based on labor savings over a
                                 10-year period. These funds represent funds put to better
                                 use for the Postal Service and will be reported as such in our
                                 Semiannual Report to Congress.

                                 The Postal Service could also improve efficiency by using
                                 available technologies and updating policies and
                                 procedures. We will address the latter two issues in our
                                 global report.

                                 During the audit, Postal Service management agreed to
                                 reduce workhours and provided us with an action plan.

 Summary of                      We recommended the acting plant manager, J. T. Weeker
 Recommendations                 ISC, reduce 3,860 AMRU workhours over a 5-year period,
                                 periodically evaluate operations, and provide additional
                                 training to plant operations personnel in the proper sortation
                                 of mail.

 Summary of                      Management generally agreed with our finding,
 Management’s                    recommendations, and monetary impact. They agreed to
 Comments                        reduce workhours by 3,860 over a 5-year period. They also
                                 agreed to periodically evaluate operational efficiency and, as
                                 a result, have virtually eliminated overtime in the unit. In
                                 addition, they agreed to provide additional training to plant
                                 operations personnel in the proper sortation of mail.
                                 Management’s comments, in their entirety, are included in
                                 Appendix B of this report.

 Overall Evaluation              Management’s comments are responsive and proactive in
 of Management’s                 the implementation of our recommendations. Management’s
 Comments                        actions taken or planned should correct the issues identified
                                 in the report.




                                                        ii
Efficiency of the Chicago Airmail Records Unit at the                                                      NO-AR-06-002
 J.T. Weeker International Service Center


                                             INTRODUCTION
    Background                         When the Postal Service established the International
                                       Service Centers (ISC) Network in 1996, it absorbed the
                                       operations of the Airmail Records Units (AMRU),2 which
                                       existed as part of the international exchange offices3
                                       before the creation of the ISC Network.

                                       AMRUs handle accounting records involving international
                                       mail for the international exchange offices. These units’
                                       main functions are to communicate with foreign postal
                                       administrations and reconcile incoming international mail
                                       records. The AMRUs transmit some of the information
                                       they maintain to the International Accounting Branch in
                                       St. Louis, Missouri, for processing and payment to
                                       transportation carriers and foreign postal administrations.

                                       International Network Operations has functional
                                       responsibility for AMRUs. AMRUs have 94 dedicated
                                       full-time employees located in Los Angeles, California;
                                       Chicago, Illinois; San Francisco, California; Dallas, Texas;
                                       Honolulu, Hawaii; Jamaica, New York; Jersey City,
                                       New Jersey; Miami, Florida; and San Juan, Puerto Rico.
                                       The Chicago AMRU reports to the manager, In-Plant
                                       Support, at the J.T. Weeker ISC. The Chicago AMRU
                                       employs a supervisor and eight full-time clerks.

    Objective, Scope,                  The audit assessed the efficiency of operations at the
    and Methodology                    Chicago AMRU at the J.T. Weeker ISC. To assess the
                                       efficiency of the Chicago AMRU, we observed operations
                                       at the unit, analyzed volumes of records processed and
                                       associated workhours, interviewed Postal Service
                                       employees, and evaluated employee efficiency. We also
                                       reviewed applicable Postal Service handbooks and
                                       regulations, including F-59, International Exchange Office
                                       Procedures, June 1992; Standard Operating Procedures,
                                       January 1995; and Title 39, United States Code.




2
  AMRUs are also referred to as international records units.
3
  An international exchange office is a post office, airport mail center, or facility authorized to exchange
international mail and military mail, both air and surface, with another country.



                                                            1
Efficiency of the Chicago Airmail Records Unit at the                                               NO-AR-06-002
 J.T. Weeker International Service Center




                                    Through observations, interviews, and prior audit work, the
                                    Postal Service Office of Inspector General established a
                                    productivity rate of 24 records per workhour.4 Postal
                                    Service management agreed with this targeted productivity
                                    rate.

                                    We also analyzed International AMRU weekly reports
                                    issued from October 25, 2003, through October 22, 2004,
                                    which the AMRU prepared and submitted to International
                                    Network Operations at headquarters. We were unable to
                                    trace data to the source documents because it is a manual
                                    reporting system involving thousands of hard-copy
                                    records. Thus, we used records processed and hours in
                                    aggregate to determine the unit’s productivity, which we
                                    compared to the target rate. We also analyzed data from
                                    the Web Enterprise Information System. We did not test
                                    the validity of controls over these systems or data
                                    accuracy.

                                    We conducted this audit from April through
                                    December 2005 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate.

    Prior Audit                     We have issued three prior audit reports on the efficiency
    Coverage                        of AMRUs.

                                    Efficiency of the Airmail Records Unit at the New York
                                    International Service Center (Report Number NO-AR-04-
                                    011, issued September 24, 2004). We recommended
                                    Postal Service management reduce workhours by 30,000
                                    to improve the efficiency of operations, and consider
                                    possible outsourcing. Postal Service management agreed
                                    with our recommendations.




4
 The methodology for determining target productivity we used in this report matched the one we used in the
New York ISC AMRU review, which more closely met management’s expectations for productivity.



                                                        2
Efficiency of the Chicago Airmail Records Unit at the                               NO-AR-06-002
 J.T. Weeker International Service Center



                                   Efficiency of the Airmail Records Unit at the Los Angeles
                                   International Service Center (Report Number NO-AR-05-
                                   010, issued April 28, 2005). We recommended Postal
                                   Service management reduce workhours by 5,450 to
                                   improve the efficiency of operations, periodically evaluate
                                   operations, and train plant operations personnel in proper
                                   mail sortation. Postal Service management agreed with
                                   our recommendations.

                                   Efficiency of the Airmail Records Unit at the San Francisco
                                   International Service Center (Report Number NO-AR-05-
                                   012, issued September 6, 2005). We recommended
                                   Postal Service management reduce workhours by 7,757 to
                                   improve the efficiency of operations, periodically evaluate
                                   operations, and train plant operations personnel in proper
                                   mail sortation. Postal Service management agreed with
                                   our recommendations.




                                                        3
Efficiency of the Chicago Airmail Records Unit at the                               NO-AR-06-002
 J.T. Weeker International Service Center



                                        AUDIT RESULTS
 Assessment of                 The Chicago AMRU was not operating efficiently.
 Operational                   Specifically, the Chicago AMRU:
 Efficiency
                                   •   Processed fewer records per workhour than the
                                       targeted productivity rate.

                                   •   Misaligned some workhours with workload.

                                   •   Performed extra work because plant operations
                                       personnel sorted some mail improperly.

                                   •   Manually maintained and retrieved records.

                                   •   Performed some unnecessary work.

                               Title 39, United States Code, Chapter 4, §403, states, “The
                               Postal Service shall plan, develop, promote and provide
                               adequate and efficient postal services. . . .”

                               These conditions occurred because Postal Service
                               managers had not evaluated operational efficiency,
                               extensively analyzed operations, or examined and updated
                               procedures. Consequently, the Chicago AMRU used more
                               workhours than necessary to process international mail
                               records.

                               As a result, the Postal Service could begin to improve
                               operational efficiency by reducing workhours by 3,860 over
                               a 5-year period. This reduction could produce a cost
                               avoidance of approximately $1.1 million based on labor
                               savings over a 10-year period. (See Appendix A for details.)




                                                        4
Efficiency of the Chicago Airmail Records Unit at the                                                                                                                                                                                                                                                                            NO-AR-06-002
 J.T. Weeker International Service Center



 Records Processed                                                                                              The Chicago AMRU processed an average of 16.6 records
                                                                                                                per workhour as compared to the targeted productivity rate
                                                                                                                of 24 records per workhour. Chart 1 shows the productivity
                                                                                                                of the Chicago AMRU compared to the targeted productivity
                                                                                                                rate. This productivity difference of over seven records per
                                                                                                                workhour means the Chicago AMRU has the opportunity to
                                                                                                                reduce workhours.

                                                                                                     Chart 1: Productivity of Chicago AMRU
    Records Processed Per Hour




                                 50
                                 45
                                 40
                                 35
                                 30
                                 25
                                 20
                                 15
                                 10
                                  5
                                  0
                                      10/25/2003
                                                   11/8/2003
                                                               11/22/2003
                                                                            12/6/2003
                                                                                        12/20/2003
                                                                                                     1/3/2004
                                                                                                                1/17/2004
                                                                                                                            1/31/2004
                                                                                                                                        2/14/2004
                                                                                                                                                    2/28/2004
                                                                                                                                                                3/13/2004
                                                                                                                                                                            3/27/2004
                                                                                                                                                                                        4/10/2004
                                                                                                                                                                                                    4/24/2004
                                                                                                                                                                                                                5/8/2004
                                                                                                                                                                                                                           5/22/2004
                                                                                                                                                                                                                                        6/5/2004
                                                                                                                                                                                                                                                   6/19/2004
                                                                                                                                                                                                                                                               7/3/2004
                                                                                                                                                                                                                                                                          7/17/2004
                                                                                                                                                                                                                                                                                      7/31/2004
                                                                                                                                                                                                                                                                                                  8/14/2004
                                                                                                                                                                                                                                                                                                              8/28/2004
                                                                                                                                                                                                                                                                                                                          9/11/2004
                                                                                                                                                                                                                                                                                                                                      9/25/2004
                                                                                                                                                                                                                                                                                                                                                  10/9/2004
                                                                                                                                                                            Weeks Beginning

                                                                                                                   Chicago AMRU Records Per Hour                                                                                       Target Productivity Rate



 AMRU Workhours                                                                                                 Workhours used for records processing did not always
                                                                                                                reflect changes in the workload. Chart 2 shows workhours
                                                                                                                across the period were essentially flat, even though there
                                                                                                                were wide fluctuations in workload.




                                                                                                                                                                                        5
Efficiency of the Chicago Airmail Records Unit at the                                                       NO-AR-06-002
 J.T. Weeker International Service Center



                                        Chart 2: Workload Compared to Workhours

                              12,000                                                              1200

                              10,000                                                              1000
          Records Processed



                               8,000                                                              800




                                                                                                         Workhours
                               6,000                                                              600

                               4,000                                                              400

                               2,000                                                              200

                                  0                                                               0
                                       10/25/2003
                                        11/8/2003
                                       11/22/2003
                                        12/6/2003
                                       12/20/2003
                                         1/3/2004
                                        1/17/2004
                                        1/31/2004
                                        2/14/2004
                                        2/28/2004
                                        3/13/2004
                                        3/27/2004
                                        4/10/2004
                                        4/24/2004
                                         5/8/2004
                                        5/22/2004
                                         6/5/2004
                                        6/19/2004
                                         7/3/2004
                                        7/17/2004
                                        7/31/2004
                                        8/14/2004
                                        8/28/2004
                                        9/11/2004
                                        9/25/2004
                                        10/9/2004
                                                           Weeks Beginning

                                       Chicago AMRU Records Processed        Chicago AMRU Workhours



                                              A review of actual records further illustrates the
                                              misalignment of workhours to workload. As shown in
                                              Table 1, during the week of October 4, 2004, AMRU clerks
                                              used 282 workhours to process 1,544 records – an average
                                              of five records per workhour. During the week of
                                              October 11, 2004, AMRU clerks used 208 workhours to
                                              process 8,677 records – an average of 42 records per
                                              workhour. We found AMRU workhours remain relatively
                                              stable while workload fluctuates significantly. We believe
                                              management should assign AMRU clerks other functions
                                              when records processing workload declines.

                                     Table 1: Records Processed Per Workhour
                                                                 Total    Records per
                                    Week          Workhours    Records     Workhour
                              June 21, 2004          304        1,517         5
                              September 6, 2004      197        6,696         34
                              October 4, 2004        282        1,544         5
                              October 11, 2004       208        8,677         42




                                                                 6
Efficiency of the Chicago Airmail Records Unit at the                                                  NO-AR-06-002
 J.T. Weeker International Service Center




    Mail Sortation               Plant operations personnel did not always sort mail properly.
                                 Our review of Verification Notes5 showed plant operations
                                 personnel frequently sent mail to the wrong country. For
                                 example, from October 2003 to October 2004, the Chicago
                                 AMRU received 8,783 Verification Notes (or approximately
                                 20 percent of all Verification Notes) advising that mail had
                                 been incorrectly sent. This resulted in additional work for the
                                 Chicago AMRU clerks who handle and input these records.

                                 The Chicago AMRU supervisor assists in reducing this
                                 workload by providing a weekly report to plant operations
                                 management that includes the type and number of missent
                                 mailpieces and the top five incorrect destinations listed on the
                                 Verification Notes. However, the supervisor told us this
                                 process has not made a significant difference in correcting the
                                 problem. Training that better emphasizes the importance of
                                 sorting mail to the correct country could greatly reduce this
                                 extra workload.

    Manual Records               The Chicago AMRU manually maintained approximately
                                 626,805 hard-copy international mail records. The Postal
                                 Service could minimize paper use and storage by
                                 exchanging information through Electronic Data
                                 Interchange.6 Illustration 1 shows the Chicago AMRU’s
                                 manual filing system.

                                                       Illustration 1: Chicago AMRU
                                                      Manual Hard-Copy Filing System




5
  Foreign postal administrations use Verification Notes, formerly known as Bulletin of Verifications, to communicate
irregularities in the preparation, dispatch, and receipt of mail.
6
  Electronic Data Interchange is a computer-to-computer exchange of information in a standard format.



                                                         7
Efficiency of the Chicago Airmail Records Unit at the                                                     NO-AR-06-002
 J.T. Weeker International Service Center


                                  We also observed the processing of manual records was
                                  slow and inefficient. Chicago AMRU receives records from
                                  plant operations and foreign postal administrations.
                                  Chicago AMRU clerks manually count, sort, and categorize
                                  records for processing. They perform data entry and file
                                  hard-copy records in the unit. They also manually retrieve
                                  hard-copy records from their files to respond to foreign
                                  postal administrations’ inquiries concerning actions taken on
                                  incoming records. Automating these processes and
                                  electronically transmitting responses would be more
                                  efficient. Illustration 2 shows Chicago AMRU’s manual work
                                  environment. We will address this issue in our global report.

                                  Illustration 2: Chicago AMRU management could automate work at
                                                      this unit to reduce workhours.




    Extra Work                    We observed clerks were performing unnecessary work.
                                  We observed clerks spending approximately 56 hours a
                                  week collecting, sorting, and filing Inbound Express Mail7
                                  manifests in order to comply with outdated procedures.
                                  These procedures required AMRU clerks to complete a
                                  Missing/Duplicate Report on Express Mail manifests
                                  initiated by the International Accounting Branch. According
                                  to management at the International Accounting Branch, this
                                  report has not been required for more than 2 years.

                                  This condition occurred because management had not
                                  assessed AMRU operations. We also found that standard
                                  operating procedures were outdated and did not reflect
                                  current conditions in the AMRU work environment.8

7
  Express Mail is a mail class that provides expedited delivery service. This is the fastest mail service offered.
Express Mail International Service is available between the United States and most other countries.
8
  Two primary guides for AMRU operations are Handbook F-59, International Exchange Office Procedures,
June 1992; and Standard Operating Procedures, January 1995.



                                                           8
Efficiency of the Chicago Airmail Records Unit at the                                NO-AR-06-002
 J.T. Weeker International Service Center



                               As a result, management used more workhours than
                               necessary to process international mail records. We will
                               address the issues of extra work and outdated procedures in
                               our global report.

 Recommendations               To improve operating efficiency at the AMRU, we
                               recommended the acting plant manager, J.T. Weeker ISC:

                                   1. Reduce workhours by 3,860, resulting in a cost
                                      savings of approximately $1.1 million over a 10-year
                                      period.

                                   2. Periodically evaluate operational efficiency and
                                      staffing, at least annually, to determine whether
                                      further workhour adjustments are necessary based
                                      on workload.

                                   3. Provide additional training to plant operations
                                      personnel in the proper sortation of mail.

 Management’s                  Management generally agreed with our finding and
 Comments                      recommendations. They agreed to reduce workhours by
                               3,860 over a 5-year period. However, management used
                               local information for salary and benefits to calculate
                               monetary impact from these workhour reductions and OIG
                               used nationwide average fully loaded labor rates the Postal
                               Service provided. We followed up with management on this
                               difference in projected workhour savings and reached an
                               agreement to use the OIG’s reported monetary impact.
                               They also agreed to periodically evaluate operational
                               efficiency and, as a result, have virtually eliminated overtime
                               in the unit. In addition, they agreed to provide additional
                               training to plant operations personnel in the proper sortation
                               of mail. Management’s comments, in their entirety, are
                               included in Appendix B of this report.

 Evaluation of                 Management’s comments are responsive and proactive in
 Management’s                  the implementation of our recommendations.
 Comments                      Management’s actions taken or planned should correct the
                               issues identified in the finding.




                                                        9
Efficiency of the Chicago Airmail Records Unit at the                                  NO-AR-06-002
 J.T. Weeker International Service Center




                                          APPENDIX A

                 COST AVOIDANCE AT THE CHICAGO AMRU,
                            J.T. WEEKER ISC
                      (FUNDS PUT TO BETTER USE)


                                                                                   Discounted Total
                                                          Undiscounted Total      Savings (or Costs)
                                        Total              Savings (or Costs)         (10 Years;
                                      Workhour           (10 Years; 3.1 Percent   5 Percent Discount
        Employee Category             Reduction             Escalation Rate)             Rate)

   AMRU Clerks (PS-6):
   Yearly reduction of                   3,860                $1,533,894              $1,121,794
   772 hours average per
   year over 5 years.

Notes

    •    We based workhour reductions on Postal Service management’s plan to
         reduce 3,860 workhours over a 5-year period from fiscal years (FY) 2006 to
         2010, based on FY 2004 workhour usage.

    •    Using the April 15, 2005, Decision Analysis Report (DAR) “Productive
         Workyear Factor” of 1,746 hours per year for bargaining employees,
         3,860 workhours is the equivalent to about two employees (2.2).

    •    We calculated cost avoidance using the workhour savings multiplied by the
         escalated labor rate over a 10-year period beginning in FY 2006.

    •    We calculated the net present value using the discount rate of 5 percent over
         a 10-year period. The yearly escalation factor is 3.1 percent (DAR factors
         effective April 15, 2005).

    •    We based labor rates on the Postal Service’s March FY 2005 published rates
         for a PS-6 mail processing clerk in FY 2006 (salary, fringe, and service-wide
         costs).

Funds Put to Better Use – Funds that can be used more efficiently by
implementing recommended actions.




                                                    10
Efficiency of the Chicago Airmail Records Unit at the    NO-AR-06-002
 J.T. Weeker International Service Center


                 APPENDIX B. MANAGEMENT’S COMMENTS




                                                    11
Efficiency of the Chicago Airmail Records Unit at the    NO-AR-06-002
 J.T. Weeker International Service Center




                                                    12
Efficiency of the Chicago Airmail Records Unit at the   NO-AR-06-002
 J.T. Weeker International Service Center




                                                 13
